No.20-_ _
IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020
.ANGNEM GREEN,

Petitioner,
v.
STATE OF NEW YORK,

Respondent.

APPLICATION FOR LEAVE
TO PROCEED INFORMA PAUPERIS
TO THE HONORABLE, THE CHIEF JUSTICE OF THE UNITED STATES
AND THE ASSOCIATE JUSTICES OF THE UNITED STATES SUPREME COURT:
Petitioner, ANGNEM GREEN, respectfully seeks to leave to proceed in forma
pauperis, without payment of filing fees and costs.
Counsel certifies that, in proceedings before the lower court in this case,
petitioner was represented by counsel assigned pursuant to the New York County
Law Article 18-B.

Dated: December 21, 2020
Syracuse, New York
JOHN A. CIRANDO, ESQ.
Counsel of Record
D.J. & J.A. CIRANDO, PLLC
101 South Salina Street, Suite 1010
Syracuse, New York 13202
(315) 474-1285
cirandolaw@outlook.com
Counsel for Petitioner

